C'OCKLE
2311 Douglas Street CA Le 2g al Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-659
LARRY THOMPSON,
Petitioner,

Ve
POLICE OFFICER PAGIEL CLARK, SHIELD #28472;
POLICE OFFICER PAUL MONTEFUSCO, SHIELD #10580;
POLICE OFFICER PHILLIP ROMANO, SHIELD #6295;
POLICE OFFICER GERARD BOUWMANS, SHIELD #2102,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of June, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE CURRENT AND FORMER
PROSECUTORS, DEPARTMENT OF JUSTICE OFFICIALS, AND JUDGES IN SUPPORT OF PETITIONER in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
MARY B. MCCORD
Counsel of Record
KELSI BROWN CORKRAN
AMY L. MARSHAK
SETH WAYNE
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY LAW CENTER
600 New Jersey Ave., NW
Washington, DC 20001
(202) 661-6607
mbm7@georgetown.edu

Subscribed and sworn to before me this 11th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

enema | Keree: Q.Llaos? Onda: hile

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 41047
Attorneys for Petitioner

Roderick & Solange MacArthur Justice Center
501 H St. NE

Amir H. Ali Suite 275

Counsel of Record Washington, DC 20002 202-869-3434

amir.ali@macarthurjustice.org

Party name: Larry Thompson

Attorneys for Respondents

New York City Law Department
100 Church Street

Richard Paul Dearing New York, NY 10007 212-356-2500

Counsel of Record
rdearing@law.nyc.gov

Party name: Police Officer Pagiel Clark, Shield #28472, et al.
